<html>
<title> - UNDERSTANDING THE MILLENNIAL PERSPECTIVE IN DECIDING TO PURSUE AND REMAIN IN FEDERAL EMPLOYMENT</title>
<body><pre>[Senate Hearing 114-548]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-548

                UNDERSTANDING THE MILLENNIAL PERSPECTIVE
         IN DECIDING TO PURSUE AND REMAIN IN FEDERAL EMPLOYMENT

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2016

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                       U.S. GOVERNMENT PUBLISHING OFFICE
23-786 PDF                  WASHINGTON : 2017                       
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3a2d321d3e282e293538312d733e323073">[email&#160;protected]</a>  


       
       
       
       COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    JON TESTER, Montana
MICHAEL B. ENZI, Wyoming             CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska
                     John Cuaderess, Staff Director
                  Eric Bursch, Minority Staff Director
                      Rachel Mairella, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Carper...............................................    18
Prepared statement:
    Senator Lankford.............................................    39
    Senator Heitkamp.............................................    41
    Senator Tester...............................................    43

                               WITNESSES
                      Thursday, September 29, 2016

Mark Reinhold, Associate Director for Employee Services and Chief 
  Human Capital Officer, U.S. Office of Personnel Management.....     5
Angela Bailey, Chief Human Capital Officer, U.S. Department of 
  Homeland Security..............................................     6
Lauren Leo, Assistant Administrator, Office of Human Capital 
  Management, National Aeronautics and Space Administration......     8
Robert Goldenkoff, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................    10

                     Alphabetical List of Witnesses

Bailey, Angela:
    Testimony....................................................     6
    Prepared statement...........................................    49
Goldenkoff, Robert:
    Testimony....................................................    10
    Prepared statement...........................................    62
Leo, Lauren:
    Testimony....................................................     8
    Prepared statement...........................................    57
Reinhold, Mark:
    Testimony....................................................     5
    Prepared statement...........................................    44

                                APPENDIX

Statement submitted for the Record from the National Treasury 
  Employees Union................................................    92
Responses to post-hearing questions for the Record:
    Mr. Reinhold.................................................    96
    Ms. Bailey...................................................   105
    Ms. Leo......................................................   112
    Mr. Goldenkoff...............................................   118

 
                      UNDERSTANDING THE MILLENNIAL
                       PERSPECTIVE IN DECIDING TO
                PURSUE AND REMAIN IN FEDERAL EMPLOYMENT

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2016

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Ernst, Heitkamp, and Carper.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning, everyone. Welcome to 
today's Subcommittee hearing, Connecting with Millennials: 
Strategies for the Federal Government to Attract and Utilize 
Younger Workers. The Federal Government currently employs more 
than 2.5 million Executive Branch civilians. However, according 
to the Government Accountability Office (GAO), 600,000 Federal 
employees will be eligible to retire by September 2017. That is 
a staggering 31 percent of the current workforce.
    Unfortunately, those under 35 years of age make up only 16 
percent of the government employees, meaning that in order to 
make up for the anticipated retirements, we must recruit and 
hire a new generation of Federal employees. While the need for 
effective government recruitment is apparent, especially with 
the amount of anticipated retirements, it is particularly 
important to show younger applicants that a government career 
can be fulfilling and a worthwhile endeavor to be able to serve 
their fellow citizens.
    Unfortunately, there are many obstacles we must overcome in 
order to attract the key demographic millennials into the 
Federal workforce. When it comes to obstacles in hiring 
millennials in the Federal workforce, the two problems I hear 
about most often are the lengthy and cumbersome hiring process 
and the fact that many millennials believe government service 
is not a rewarding or fulfilling job.
    According to some studies, the millennial generation is 
leery of Federal service because of the rigidity of the General 
Schedule (GS) system, which often treats everyone the same 
regardless of skill level. They feel that job assignments and 
rewards for achievements are arbitrary and that incentives to 
excel are rare and recognition for exceeding expectations are 
mostly non-existent. Whether or not this is true, it is the 
perception that Federal agencies must overcome or address in 
order to attract millennials into the workforce.
    The Federal hiring process is another obstacle we must 
address. The new generation of Federal workers has grown up in 
a world where decisions are made quickly and efficiently. 
Recruiting and hiring in the private sector is accomplished in 
days and weeks, not in months. On average, it takes 100 days to 
fill an open position in the Federal Government. One hundred 
days. The Office of Personnel Management (OPM's) Acting 
Director has testified that she wants to bring that down to 60 
days. We will never attract the first-rate workers that we seek 
if the current rate of hiring continues to be 100 days or 60 
days or any of these other goals. We have to get to a faster 
process. Whether they are forklift drivers at military 
facilities or analysts at the National Security Agency (NSA), 
the brightest and the skilled will not wait 100 or 60 days. I 
doubt they will even settle for 45 days, and it is tougher 
because many places they go into, they can be hired within days 
or a week or two.
    I frequently hear from Oklahomans about their attempts to 
work for the government, which they too often abandon when it 
takes three months or more to hear back about their USAJOBS 
application. Workers should not be torn between providing for 
themselves and their families during a season-long application 
process or taking a job in the private sector that hires more 
quickly.
    To recruit the best employees and attract the millennial 
generation to civil service, we must make the government a 
viable competitor with the private sector. This begins with 
seeking out and hiring the best employees in a timely fashion 
and providing them with an atmosphere that maximizes their 
skills and rewarding them based on expectations.
    I look forward to talking with our witnesses today about 
ways to make the hiring process faster, to reward employees 
based on merit, and to engage the next generation in fulfilling 
civil work service.
    With that, I now recognize Ranking Member Heitkamp for her 
opening statement.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Lankford.
    I am very pleased that finally, after a lot of planning and 
a lot of discussion, we are holding this hearing entitled 
``Understanding the Millennial Perspective in Deciding to 
Pursue and Remain in Federal Employment.'' We did a lot of 
negotiating to get to that title.
    I would first like to say that I can appreciate that 
millennials are by no means an easy generation to quantify and 
to generalize.
    In fact, I had a whole discussion with my staff one morning 
about the difference between an older and a younger millennial, 
and I am not sure we came to a consensus. But I knew most of 
them were millennials.
    It is important to say that I have been looking forward to 
this hearing for some time because I think that it is only the 
beginning of the conversation. And when you look at the 
statistics that Chairman Lankford just gave us, 31 percent, and 
one of the things that we learned during the Bakken boom was 
that when we did not have Federal employees on the ground, 
permits were not issued, frustrating many of the companies that 
wanted to build infrastructure. We did not see our grassland 
grazing associations be able to get grassland plans approved. 
And so it is not just about filling a bureaucratic slot. Many 
times these jobs are critically important to moving commerce 
forward in our State.
    So when we look at our hearing today, we are very fortunate 
to have OPM, the Department of Homeland Security (DHS), the 
National Aeronautics and Space Administration (NASA), and GAO 
testifying from their perspectives, but you are obviously not 
the only one, only perspective, and I think at some point we 
desperately need to hear from the people that we are talking 
about, which are people who fall in this age category.
    So I appreciate that both OPM and the Federal agencies have 
made tremendous strides in their recruitment and retention 
efforts. I am looking forward to a spirited discussion today on 
how the following challenges affect millennial generations: 
compensation and benefits, career growth within Federal 
agencies, the job application process in the Federal 
Government, and the intersection between engagement, 
creativity, and work culture.
    Most importantly, I feel it is important that the Federal 
Government connect with the millennial generation in a way that 
speaks to their needs and their desire to pursue mission-
oriented careers, while also demonstrating what all the careers 
in the Federal Government have to offer.
    So I am looking forward, and I am reminded of a story that 
is often told about someone walking through the halls of NASA, 
asking someone who was cleaning up from a day's work what he 
did, and he said, ``I help put men on the Moon.'' And that is 
what we need. We need that kind of connectivity to the mission 
that will make sure that everybody does not feel just like a 
cog but part of a team.
    And so I really look forward to this hearing. Thank you so 
much for agreeing to attend. And, Chairman Lankford, I know 
that, having completed the Senate business yesterday, you would 
love to be home with your family but stayed so that we could do 
this hearing. So my personal thank you to you.
    Senator Lankford. The right thing to do. This is a big 
issue for us as well, and I appreciate that. At this time we 
will proceed with testimony from witnesses.
    Mark Reinhold is the Associate Director for Employee 
Services and Chief Human Capital Officer (CHCO) for the U.S. 
Office of Personnel Management. At OPM Mr. Reinhold is 
responsible for designing, developing, and implementing 
governmentwide human resource policy and programs for strategic 
workforce planning. He has worked in human resources at OPM 
under four different Directors. You have been before this 
Committee before, and we appreciate you coming back again.
    Angie Bailey is the Chief Human Capital Officer at the U.S. 
Department of Homeland Security, where she has served since 
January 2016. Prior to DHS, Ms. Bailey worked at OPM as the 
Chief Operating Officer (COO), Deputy Associate Director for 
Recruitment and Hiring, and the Chief Human Capital Officer. We 
appreciate you being here.
    Lauren Leo is the Assistant Administrator at the Office of 
Human Capital Management for the National Aeronautics and Space 
Administration. Ms. Leo sets the workforce development 
strategy, assesses future needs, and aligns human resource 
policies with NASA's goals. She is a member of the Human 
Capital Officers Council.
    Robert Goldenkoff is the Director of Strategic Issues at 
the U.S. Government Accountability Office. At GAO Mr. 
Goldenkoff leads reviews of governmentwide civil service 
reforms and looks for ways to improve the cost-effectiveness of 
the Federal statistical system. He also serves on the Advisory 
Board of the George Washington University Trachtenberg School 
of Public Affairs and Public Administration.
    I would like to thank each of the witnesses for appearing 
before us today. It is the custom of this Subcommittee to swear 
in all witnesses before they testify, so if you would please 
stand and raise your right hand. Do you swear the testimony you 
are about give before this Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Reinhold. I do.
    Ms. Bailey. I do.
    Ms. Leo. I do.
    Mr. Goldenkoff. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect the witnesses all answered in the affirmative.
    I do appreciate your testimony today. Not only will your 
written testimony be a part of the permanent record, but also 
your oral testimony coming up. You have all done this before. 
You know the timing system there in front of you. I would like 
you to be able to stay as close to 5 minutes as possible as we 
go through the countdown.
    I do want to give one quick statement. I have already 
mentioned this to the witnesses as well. I have actually been 
asked to speak on the floor here at about 10:45, on the Senate 
floor, Senator Alexander and I, so I will have to slip away at 
about 10:40, and then I will come right back. I will leave this 
Subcommittee in the very capable hands of our Ranking Member, 
Senator Heitkamp, during that time period. So we will continue 
on with the hearing during that time period, but I will have to 
slip away for a moment and be able to come back.
    Mr. Reinhold, you are up to bat first.

TESTIMONY OF MARK REINHOLD,\1\ ASSOCIATE DIRECTOR FOR EMPLOYEE 
   SERVICES AND CHIEF HUMAN CAPITAL OFFICER, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Reinhold. Thank you. Chairman Lankford, Ranking Member 
Heitkamp, and Senator Ernst, thank you for the opportunity to 
be here today to discuss the OPM's role in helping agencies 
build and support the Federal workforce. As the Associate 
Director of Employee Services and the Chief Human Capital 
Officer of OPM, I appreciate the opportunity to give you an 
overview of our efforts to ensure Federal agencies have the 
guidance, tools, and support they need to build and sustain 
talent.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reinhold appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    This Subcommittee has explored several important Federal 
workforce matters in a hearing and a roundtable over the course 
of the past year.
    As OPM has testified previously, each agency is responsible 
for strategically managing its workforce to deliver on its 
mission and goals. OPM understands that these responsibilities 
are varied and at times challenging, and we recognize that the 
Federal system of employment is grounded in core statutory 
principles and ideals that make it different than many other 
employment sectors. As such, we strive to assist and support 
agencies in building and sustaining the Federal workforce they 
need, in a way that is consistent with the core foundational 
precepts of our merit system of employment.
    One way we support agencies is through administering the 
Federal Employee Viewpoint Survey. Through this survey, we are 
able to examine and report on key drivers of employee 
engagement and satisfaction with important aspects related to 
work.
    Following heightened focus on employee engagement and 
satisfaction over the past few years, for the second year in a 
row the governmentwide employee engagement and global 
satisfaction indices have risen, breaking the prior four-year 
decline.
    OPM encourages agencies to support diversity and inclusion 
in the workplace and ensure that their recruitment reaches all 
segments of society. As the U.S. workforce continues to 
experience demographic shifts, Federal agencies must continue 
their focus on attracting diverse talent. The Federal 
Government continues to be a leader in providing employment 
opportunities to minorities; as of 2015, minorities represented 
almost 36 percent of the Federal workforce, which is greater 
than the percentage of minorities within the U.S. civilian 
labor force. The Senior Executive Service (SES) is more diverse 
than ever before, with women and minorities continuing to 
increase in representation. And the impact of the millennial 
generation is increasingly being reflected in the demographics 
of the Federal workforce, as people under 35 represented about 
44 percent of full-time permanent new hires into Federal 
service in fiscal year (FY) 2015.
    OPM is working with agencies to examine their existing 
human capital management programs, understand their challenges, 
provide technical assistance, tools, and support, advance sound 
policy solutions, and encourage agency operational 
enhancements. For example, OPM, in partnership with the Office 
of Management and Budget (OMB) and the Presidential Personnel 
Office, has launched a Hiring Excellence Campaign as part of 
the President's Management Agenda. The campaign enables OPM to 
reach Federal hiring managers and human resources professionals 
in headquarters and field locations nationwide. Through the 
campaign, human resources staff and hiring managers learn about 
best practices, tools, tips, and techniques that can help 
improve the hiring process and, more importantly, hiring 
outcomes.
    To date, OPM has conducted 32 in-person workshops across 
the Nation, and virtual presentations are further expanding on 
this reach. So far, the Hiring Excellence Campaign has reached 
nearly 1,200 hiring managers and human resources professionals 
from 25 agencies.
    OPM has also undertaken recent work to enhance the USAJOBS 
website for the benefit of both job seekers and agencies. 
USAJOBS now provides new tools agencies can use to find and 
recruit talent and offers applicants an improved user 
experience aimed at easing common pain points. These 
enhancements are yielding real dividends in improving user 
satisfaction, which increased from 72 percent to an all-time 
high of 79 percent over the past year.
    Research tells us that students and recent graduates about 
to enter the workforce believe in public service and want to 
make a difference, and the Student Internship and Recent 
Graduates Pathways Programs are designed to help tap this 
important talent pool. Our data show that more than 35,000 
people have been hired through the Pathways Programs as of the 
end of fiscal year 2015, and 93 percent of Pathways Programs 
participants who responded in a recent study conducted by OPM 
either plan to remain at their current agencies or want to stay 
with the Federal Government in the immediate future.
    OPM is working diligently to assist the Federal Government 
in recruiting and retaining a workforce that is drawn from the 
American public it serves and fulfills the commitment each 
agency holds to delivering on its important mission.
    Thank you again for having me here today, and I am happy to 
respond to any questions.
    Senator Lankford. Thank you. Ms. Bailey.

  TESTIMONY OF ANGELA BAILEY,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Bailey. Chairman Lankford, Ranking Member Heitkamp, and 
Senator Ernst, thank you for the opportunity to appear before 
you here today to address recruitment and retention of 
millennials in the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bailey appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    I joined DHS in January of this year as the Chief Human 
Capital Officer. I am a career executive with nearly 35 years 
of Federal service, including almost 30 years in human 
resources. I actually started at the age of 17, so while I may 
not necessarily be considered a millennial, I think I kind of--
at one point--maybe was, right?
    I look forward to discussing with you the challenges in 
hiring millennials to the Federal workforce and the challenges 
in retaining them once they are hired, such as compensation and 
benefits, career growth within DHS, and the process of applying 
for a Federal job, and the intersection between engagement, 
creativity, and workplace culture.
    Like my colleagues here today, I have some examples of 
where we are quite successful and also some ideas on ways we 
can partner with you and OPM to address our challenges.
    One idea that you may be familiar with is the idea to 
create a passport where talented folks, including millennials, 
can more easily move in and out of government with an eye 
toward capitalizing on their gained experience and education in 
a more realistic manner. Today this talent has to compete for 
jobs with higher responsibility and pay if they leave the 
Federal Government and wish to come back. The passport idea 
would ultimately eliminate the need for further competition 
when rejoining the Federal Government, making it far easier to 
move talent in and out of government at the levels in which we 
need their expertise.
    The catch is that this would require legislative change 
because we would need an appointing authority to make this 
happen. In this regard, DHS is more than willing to work with 
you and Members of this Subcommittee and OPM to craft 
legislative language that makes sense for both the talent we 
seek and the agencies whose mission we support.
    Another idea we successfully implemented was having our 
components within DHS pull together and bring to life the 
principles of unity of effort in recruiting and hiring over 370 
cybersecurity professionals during and immediately following a 
2-day hiring event. We literally turned the idea of time to 
hire on its head by focusing instead on what we could 
creatively do with the authorities already granted to us by OPM 
and do so in a far more collaborative way within DHS. We 
received over 14,000 applications for our jobs. We interviewed 
close to 1,000 people. And our demographics to date show that 
of those that we have hired, 45 percent are millennials. By 
bringing together the DHS human resource, information 
technology (IT) and cyber, and personnel security communities 
over a course of two days, we proved to ourselves--and, quite 
frankly, the rest of the Federal Government--the art of the 
possible in hiring some of the best talent inside and outside 
of the Federal Government.
    We plan to replicate this successful event in December, but 
this time we are going to do it virtually. We are going to 
focus in on interns and recent grads, and we are going to use 
again the authorities that OPM has given us using the Pathways 
authorities.
    The bottom line for us is that when we step out smartly, we 
act in a collaborative manner, we take calculated risk, and we 
do not fear failure, we can and we do have success. The cyber 
technology hiring event is just one example. Within DHS, we are 
also applying these same principles to how we are tackling our 
other tough challenges, such as employee engagement, career 
growth for our employees, employee retention, and addressing 
pay and compensation for our critical mission and business 
operation positions.
    I look forward to exploring these important recruitment and 
retention issues with you today and, in particular, addressing 
how those ideas can be applied to our next generations of 
talent.
    Thank you.
    Senator Lankford. Thank you. Ms. Leo.

TESTIMONY OF LAUREN LEO,\1\ ASSISTANT ADMINISTRATOR, OFFICE OF 
   HUMAN CAPITAL MANAGEMENT, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Ms. Leo. Chairman Lankford, Ranking Member Heitkamp, and 
Senator Ernst, thank you very much for the opportunity to 
testify about NASA's efforts to recruit and retain millennials.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Leo appears in the Appendix on 
page 57.
---------------------------------------------------------------------------
    As NASA's Chief Human Capital Officer, my job is to care 
for and support the agency's most valuable assets: our amazing 
multigenerational workforce of brilliant rocket scientists, 
innovation engineers, and dedicated support and administrative 
personnel, and every employee and contractor who makes up the 
NASA family. These are the people who work together daily to 
overcome huge challenges of exploring space and improving life 
on Earth.
    The health of our workforce is a top priority for NASA 
leadership. Our leadership pays attention to the Federal 
Employee Viewpoint Survey results and other indicators to 
monitor the state of the agency and to develop strategies for 
continually improving employee engagement, connection, and 
effectiveness.
    At NASA, we strive to create an environment where all 
employees feel valued and have opportunities to contribute to 
the NASA mission. This requires understanding and respecting 
the different styles, values, and expectations of everyone in 
our workforce.
    Personally, I am privileged to have regular conversations 
with NASA employees. We talk about what inspires them to show 
up at work, what commits them to stay engaged throughout their 
career, and what new challenges they are up against.
    Today I would like to share with you what makes NASA such a 
great place to work, and I would also like to share what we 
have learned along the way about employee engagement, 
leadership development, and incentivizing innovation--all 
topics of importance to our younger workforce who are often 
described as the ``millennial generation.''
    NASA recognizes the tremendous value and impact provided by 
our millennial workforce, and we will continue to look at ways 
to better engage and develop them. While there is no standard 
definition of the age group known as the millennials, for 
purposes of this hearing NASA is speaking about millennials as 
employees under the age of 40 since that is an age bracket used 
in the Federal Employee Viewpoint Survey.
    NASA currently has more than 4,100 of these employees, 
which is about 23 percent of our workforce. That number will 
continue to grow as more millennials enter the workforce. And 
NASA's attrition rate for millennials is very low, at 2.8 
percent, and overall agency attrition rate is 4.7 percent.
    Research shows that millennials generally expect to work 
for multiple organizations throughout their careers. They care 
about having a positive work experience. They value learning 
and development. And they want to work for an organization that 
makes a positive impact on society. These are foundational 
elements to our approach of employee engagement at NASA.
    According to our 2015 Federal Employee Viewpoint Survey 
results, 80 percent of our millennials said that they felt 
engaged at NASA. Our millennials also had a higher response 
rate and global satisfaction scores than employees over 40 
years old. We believe these higher scores are reflective of 
NASA's intentional focus on creating a positive work 
environment in which employees feel included, valued, and 
connected to something bigger than themselves.
    Given that NASA is strongly mission and project focused, 
our employees believe in the importance of the mission, and 
they are heavily engaged in their work. They come to work at 
NASA because they want to be part of something bigger than 
themselves, not just because it is a job. Every NASA employee 
impacts the agency's mission daily, no matter his or her age, 
pay grade, or area of expertise.
    NASA employees consistently cite shared values, shared 
commitment to the mission, and loyalty to the agency as reasons 
why they feel positively engaged in their jobs. This sense of 
belonging fuels a deep sense of community at NASA, and this 
begins at the top. NASA Administrator Charlie Bolden 
fundamentally believes that communication is the cornerstone of 
his connection to employees, and he never missed an opportunity 
to tell employees directly that their work is important.
    NASA believes that agency leaders, and particularly 
supervisors, play a unique role in creating a positive work 
environment for employees. Therefore, NASA invests in a number 
of leadership development programs and activities across the 
agency, from early career to executive, that are designed to 
better equip current and future agency leaders to carry out our 
mission.
    Additionally, as part of the broader Federal Government 
community, NASA believes that we really need to work together 
to leverage what is working well across all Federal Government 
agencies, including lessons learned about best hiring 
practices.
    In conclusion, NASA's multigenerational workforce raises 
the bar of human achievement every day. These dedicated men and 
women are passionate about ushering in the future of our 
Nation, including new technologies, with the goal of one day 
landing humans on Mars.
    Personally, I am very proud of NASA's robust strategy to 
engage our workforce and to create a culture of inclusion and 
innovation. When I am asked about why NASA is such a great 
place to work, I say: ``It is our people. Without them, nothing 
would be achieved.''
    Mr. Chairman, thank you for the opportunity to appear 
before you today to share the story of NASA's workforce. I 
would be pleased to answer any questions you have.
    Senator Lankford. Thank you. Mr. Goldenkoff.

TESTIMONY OF ROBERT GOLDENKOFF,\1\ DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. Chairman Lankford, Ranking Member Heitkamp, 
Senator Ernst, thank you for the opportunity to be here today 
to discuss recruiting and retaining millennials and other age 
groups in the Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goldenkoff appears in the 
Appendix on page 62.
---------------------------------------------------------------------------
    Across Government, skill gaps and critical occupations, 
along with large numbers of employees eligible for retirement, 
are threatening the ability of agencies to carry out their 
vital missions. To help ensure agencies have the capacity to 
address complex national challenges, agencies need to be 
competitive for top talent, including millennials. Simply 
attracting and hiring quality candidates is not enough. 
Agencies need a robust talent management strategy that covers 
the full life cycle of Federal employment.
    In my remarks today, I will focus on a key component of 
such a strategy, building a culture of employee engagement. 
High levels of engagement, which is generally defined as the 
sense of purpose and commitment employees feel toward their 
employer and its mission, can make an agency more attractive to 
job seekers, reduce turnover, and, most importantly, improve 
organizational performance.
    For purposes of data comparability, my statement defines 
millennials as those employees up to and including 39 years 
old. Governmentwide, millennials represented around 30 percent 
of the civilian Federal workforce. However, that number varied 
by agency, and those agencies with high rates of retirement 
eligibility also tend to have fewer millennials in their 
workforce.
    In fiscal year 2014, for example, the Department of 
Homeland Security had the highest proportion of millennials at 
39 percent while the Small Business Administration (SBA) had 
the lowest at around 19 percent. Governmentwide, around 31 
percent of those Federal employees on board at the end of 
fiscal year 2014 will be eligible to retire by 2019.
    The large percentage of Federal employees eligible for 
retirement creates both an opportunity and a challenge for 
Federal agencies.
    On the one hand, if accompanied with appropriate strategic 
and workforce planning, it allows agencies to realign their 
workforce with needed skills and leadership levels to better 
meet their existing and any newly emerging mission 
requirements.
    On the other hand, it means that agencies will need to 
double down on succession planning efforts and focus on sources 
and methods for recruiting and retaining candidates in order to 
avoid a brain drain.
    As retirements of Federal employees continue, agencies with 
few millennials may face future gaps in leadership, expertise, 
and critical skills because millennials represent the next 
generation of workers. Developing a culture of engagement can 
help agencies' recruiting and retention efforts. Overall, 
millennial engagement levels were similar to other age groups 
in 2015, which was around 63.8 percent for millennials compared 
to 64.2 percent for non-millennials, according to the results 
of the governmentwide Federal Employee Viewpoint Survey.
    Across individual agencies, however, there was substantial 
variation in engagement levels, ranging from a high of 80 
percent for millennials at NASA and 78 percent for non-
millennials, to a low of around 51 percent for millennials at 
DHS and 55 percent for non-millennials.
    Overall, we found that the drivers of engagement were 
similar for millennials and non-millennials and include support 
for constructive performance conversations, career development 
and training, work-life balance, inclusive work environments, 
employee involvement in decisions affecting their work, and 
communication from management.
    Building a culture of engagement also requires effective 
management practices such as top leadership involvement and 
creating a line of sight between an agency's mission and the 
work of each employee, using a range of different data sources 
to better understand agency engagement levels, and a 
recognition that the effects of engagement efforts occur over 
multiple years as cultural change takes time.
    In summary, these engagement efforts, combined with other 
components of a sound talent management strategy, provide an 
ample toolkit that should position agencies to be more 
competitive in the labor market for top talent.
    Chairman Lankford, Ranking Member Heitkamp, this concludes 
my prepared remarks, and I would be pleased to respond to any 
questions that you may have.
    Senator Lankford. Great. Thank you. I thank all of you for 
your testimony today.
    We are going to open this up to questions, and as we 
typically do on this panel, we have more open dialogue. We will 
go back and forth and be able to have a less structured 
question time. But we want to have open conversation on how we 
solve some of the issues that we have.
    Mr. Reinhold, let me chat with you first on this. You have 
been with us before, in April I believe was the last time that 
you were with us. There was a lot of conversation about 
USAJOBS. There was a lot of conversation about some of the 
hiring practices. As we met at that time, you made this 
statement: ``OPM recognizes it is a frustration for applicants 
when they do not receive up-to-date feedback from hiring 
agencies. To address this, we are working to help agencies 
streamline processes and cut down on the time it takes to fill 
Federal positions.'' How is it going since April? Give us an 
update. What has changed?
    Mr. Reinhold. Thank you for the question, Senator. So since 
April, we have rolled out in earnest our Hiring Excellence 
Campaign, and one of the components of that campaign is to 
ensure that agencies understand the importance of communicating 
with job applicants and provide regular status updates. Other 
aspects of the Hiring Excellence Campaign include bringing 
together hiring managers and H.R. specialists for better 
collaboration. We know that the best hiring outcomes can be 
achieved when the manager who is filling the position and the 
H.R. office are in close communication and have mutual 
understanding of what the manager is really interested in in 
terms of skill set and targeted areas of focus.
    Another key area is ensuring that we have good assessment 
strategies in place so that we have tools that we can use to 
distinguish the very best candidates from the rest. And we also 
talk a lot about hiring flexibilities and hiring authorities 
which can be used to help facilitate and streamline the hiring 
process, as well as a focus on the use of data and evidence to 
inform things like strategic recruiting, understanding where 
the applicant pools are and how to tap into them.
    Senator Lankford. So can I ask a question? What is the key 
metric you are looking for? Because we talk a lot about time 
and just length of time. I know it is an OPM goal as well to 
try to reduce the amount of time that it takes to do a hire. 
When you look at it and trying to evaluate, obviously we all 
want the best staff, we all want the best individuals to be 
able to be the employees there. No question about that in 
trying to get excellence. How do you track as the primary 
metric we are improving because this number is getting better?
    Mr. Reinhold. So there are actually a group of metrics that 
we are using, and one of those is time to hire, because we 
understand that continues to be of critical importance.
    In addition to that, we look at things like applicant 
satisfaction with the process. We have a fairly extensive set 
of surveys that are used for folks who are applying for jobs.
    In addition to that, we look at management satisfaction. We 
want to make sure that managers are actually satisfied with the 
outcome of the process, which tells us that we are hitting the 
mark.
    So those are some examples of what we are using.
    Senator Lankford. OK. So let me run through a list, because 
as I talk to some of the human capital folks, this is the kind 
of thing that I get and be able to walk through. In 2008, OPM 
and the Chief Human Capital Officers Council created the End-
to-End Hiring Roadmap Initiative to try to improve the Federal 
hiring process for applicants. That was in 2008.
    In 2010, the White House launched the President's Hiring 
Reform Initiative to help with recruiting and finding the most 
qualified employees for the Government.
    In 2010, OPM launched an initiative to help veterans find 
Federal jobs.
    In 2011, OPM established a Veterans Employment Program and 
the Office of Diversity and Inclusion to further the efforts to 
hire veterans.
    Also in 2011, OPM started an initiative to help students 
find Federal jobs.
    In 2015, OPM created the Recruitment, Engagement, 
Diversity, and Inclusion Strategy to improve the hiring process 
by guiding H.R. employees and managers.
    In 2016, OPM and OMB started the Hiring Excellence Campaign 
to improve hiring by raising awareness of available hiring 
authorities.
    It seems like every year or two there is a new initiative. 
I understand some of those are for different people groups as 
well, and those are all strategic areas. My challenge is that 
when we come back to the data, 60 days is the target, but in 
2013, it took about 90 days on average to do a hiring. In 2014, 
it took 94.4 days to do a Federal hire. In 2015, it now takes 
99.6 days. Our length of time to actually get there is getting 
longer.
    Now, some agencies have made improvement, DHS being one of 
those. DHS, as you know, still takes way too long to be able to 
do a hire. It is about 124 days or so on average. But it is 
getting better on that. There are some improvements happening.
    The challenge is we are trying to figure out--there are 
some good initiatives that are going on, and there is attention 
to this. What is the barrier? What can we do to be able to 
break through that? Because we want to be able to get good 
people, and part of that is getting to the hire at an 
appropriate time or we lose good people; they get hired by 
somebody else.
    Mr. Reinhold. So I will say, obviously there are quite a 
number of initiatives, and they all have, a specific purpose 
and intent behind them. One of the things that I believe 
distinguishes what we are attempting to do with the Hiring 
Excellence Campaign is kind of bring all those things together. 
So, for example, many of those were initiatives that were 
focused on facilitating recruitment of certain groups or----
    Senator Lankford. Right, veterans or students.
    Mr. Reinhold. Veterans and students. Some of those were 
specifically focused on aspects of the hiring process like get 
time to hire down, perhaps not as much of a focus on quality, 
just shortening the timeline. And what we are trying to do 
under Hiring Excellence is really emphasize the fact that all 
of those pieces fit together. And what I mean by that is there 
is a place for hiring flexibilities, leveraging those to reach 
certain groups, or to streamline the process. There is great 
importance, again, focused on things like assessments if we are 
going to go through this process, let us make sure that we are 
assessing people in smart ways so that the people who end up at 
the top of the list are the right ones and the best qualified 
for the job.
    Here, again, we are emphasizing the importance of manager 
and H.R. specialist collaboration. Some of our survey results 
show that managers are not always satisfied with the support 
that they are getting from their H.R. offices. They are not 
H.R. people. They do not understand the process. And we believe 
it is incumbent upon H.R. specialists to engage with their 
managers to achieve a good outcome.
    So these are all things that, again, we are attempting to 
take a more holistic approach so that we do not overemphasize 
any of those important aspects of hiring.
    Senator Lankford. Do we have a sense of how long it takes 
to do a hire in private industry? Have you seen a number out 
there, whether that be a Fortune 500 company or whether that be 
a middle or small business? Do we have a good feel for how long 
it takes to typically fill a position in any of those areas in 
the private sector? Obviously, it is not the same. It is region 
to region. I get all that. But have you seen a general number?
    Mr. Reinhold. Candidly, the numbers are really all over the 
place. I mean, there is a great difference between, hiring 
someone at Home Depot versus hiring somebody at a top 
consulting firm.
    Senator Lankford. But there is not in the Federal 
workforce. When I talk to some of the folks in some of our 
facilities, they will tell me stories about hiring someone in 
the warehouse in our of our Federal facilities still takes 
three months. Again, that is a specific story that I have 
heard. One of the facilities in my State trying to hire someone 
who is a qualified forklift operator, and that forklift 
operator has to wait three months to get an answer. They can go 
to Home Depot, apply right there in-store, interview with 
someone in-store, and within about 72 hours, know if they are 
hired or not. They are waiting three months--they have already 
been hired and working for Home Depot for three months before 
they get the call back from one of our facilities.
    Mr. Reinhold. I understand. I think it is important to 
recognize that there are certain features of our system that 
make it different, for better or worse, for example, our 
principles of fair and open competition, which really means 
that we should give an opportunity to the American public to 
know if there are Federal jobs that exist that might be of 
interest to them. And what that translates to often is that we 
have to put a job announcement out on the street. We have to 
leave it open for a certain amount of time so people have 
access to seeing it and having an opportunity to apply. And 
then even beyond that, there are other features like our 
background investigations, quite honestly. That is, somewhat 
unique to our system, and we certainly do not want to short-
shrift that process, but it is another part of the process that 
can take some time.
    Senator Lankford. OK. I have to run to the floor, and I am 
going to turn this over to the capacity hands of Senator 
Heitkamp, and then I will be back. And the Ranking Member of 
the full Committee, Senator Carper, has also joined us as well. 
But I will be able to circle back around, and we will be able 
to finish up the questioning that I have still have as well.
    Senator Heitkamp [Presiding.] There are folks who are 
sitting in the back, and there is a lot of interest. You are 
not supposed to sit at these press tables, but go ahead. Over 
there. Sorry, press. There is no one over there.
    Senator Lankford. You can pull out a laptop and fake it. 
[Laughter.]
    Senator Heitkamp. Everybody is a member of the press today.
    Mr. Goldenkoff, you have all these people here. Obviously, 
GAO has taken, very lengthy, detailed, almost scientific 
analysis of kind of where we are at here, taking a look at 
data, crunching the data. But you have three folks here who are 
part of that implementation, and should read your report. I 
think your report is fascinating. What three things do you want 
them to understand from this report? And if you were going to 
do this in five years, how would you judge their--because that 
is what GAO does. They look at review. How would you judge 
their performance?
    Mr. Goldenkoff. That is a great question, and I want to 
start by answering it with the story that you told at the very 
beginning about the custodian at the NASA facility who, when 
asked what his job was, he said he is putting a man on the 
Moon. The person who asked that question was John Kennedy, and 
I think that speaks so much to what we are trying to illustrate 
here today, which is the tone starts from the top. And whether 
it is at the Presidential level or the heads of agencies--and 
we heard some of that today: Charlie Bolden at NASA 
communicating with employees, connecting that mission, that 
line of sight between what they do every day on their job and 
the bigger picture. It is going on at DHS as well. So that is 
important.
    I also want to commend everybody for the steps that are 
being taken today, and there is a lot more focus now on 
recruiting and retaining employees. OPM is taking some 
important steps in the right direction.
    But, in doing so, data is important. At GAO, we are data 
geeks, so we love this stuff. But these are important metrics 
of how you are doing. And so, for example, when we talk about 
things like time to hire, whatever metrics we use, it is 
important to use outcome metrics; and it is also important to 
use a whole suite of metrics. Time to hire, that is one 
important measure, but there are others. The quality of the 
candidate was also mentioned--managers satisfaction with 
applicants, applicant satisfaction, and the diversity of the 
workforce. Who are we getting? That is important as well. So a 
second thing to say, is the importance of data.
    And so those are two things right there, and I will stop 
and just open it up for further questions.
    Senator Heitkamp. Obviously, this is a complicated issue 
with a large workforce, and there has to be--as you explained 
to Senator Lankford, we have additional obligations that may 
not be consistent with comparisons to Home Depot. Plus we know 
that there are additional requirements that we have to make 
sure that an employee is successful.
    But with that said, I am still frustrated when you look at 
USAJOBS, because it seems like we are engaging in a lot of 
study, but the USAJOBS platform coming out is still burdensome, 
it is still cumbersome. It still is a turnoff. If that is the 
first impression that we make in the Federal Government with 
employment to a potential employee, it is not a really good 
first impression.
    And so where are we at with revamping that? Where are we at 
with better communication to the agencies in terms of what they 
need and want and, just not simply passing along that list of 
people who applied but actually performing a service for the 
agencies so that they are in a better position when it comes 
time to make offers to do that more quickly?
    Mr. Reinhold. So, first off, we could not agree more that 
if USAJOBS is the face of Federal hiring, it is important that 
we have an easy-to-use website that does not turn potential 
applicants off.
    Over about the past year, OPM has been very focused on 
iteratively transforming USAJOBS into a much more user-friendly 
and attractive site that supports a better job seeker 
experience. We have rolled out already a series of enhancements 
using an agile approach where we roll out new enhancements 
about every six weeks. And then we look at our user 
satisfaction data and other metrics to determine whether those 
were the right things and whether we are on the right track.
    We have spent a great amount of effort talking to people, 
talking to millennials and other groups about what they would 
want to see in USAJOBS and have really focused intently on 
creating----
    Senator Heitkamp. And what have you learned, Mark?
    Mr. Reinhold. So what we have learned is that--so I will 
mention a couple of enhancements that I think are important.
    One of these is we have created a mobile-friendly website, 
so, we know increasingly folks are interested in being able to 
pick up their phone or their digital device and do things on 
that. So we have created a website that enables them to do 
that.
    In addition to that, we have created a new profile 
dashboard where an individual, the first thing they are asked 
to do when they get to USAJOBS is to create a profile, and it 
includes things like, tell us a little bit about yourself, 
things like----
    Senator Heitkamp. Kind of like Match.com.
    Mr. Reinhold. So what it actually does is by doing some of 
that work on the front end----
    Senator Carper. How would you know that?
    Mr. Reinhold. That just sunk in now. [Laughter.]
    Senator Heitkamp. I could not resist.
    Mr. Reinhold. So unlike Match.com--no. So, again, one of 
the other things we have is the creation of this profile, and 
it includes things like uploading certain documents, like your 
resume. So if you reach a point where you have now found a job 
that you want to apply for, you have already got your resume in 
there and, bingo, you can press a button and apply. Previously, 
folks would find, wow, I am really interested in this job, now 
what do I do? And then they would have to go to the trouble of 
figuring out, oh, is this where I load my resume and other 
documents?
    Senator Heitkamp. One of the suggestions that I would have 
is do you engage with guidance counselors in high schools and 
in college to train them on using this product, so if somebody 
is uncomfortable, it is not done in a vacuum, a young person 
who is a civil engineer says I am interested in what 
opportunities are there, goes into the counseling office at a 
university, and the university is prepared to sit down and help 
them fill out that profile and upload the resume and do that 
review. Where are we at communicating with universities and 
high schools?
    Mr. Reinhold. Yes, absolutely, and that is a critical 
compliance of our outreach strategy. In a typical year, we will 
meet with roughly 150 colleges and universities to do workshops 
such as find and apply. How do you use USAJOBS as a tool to 
find a Federal job?
    Senator Heitkamp. And when you look at this, going back to 
Mr. Goldenkoff's point, that it has to be data driven, when you 
do that, do you notice that those places where universities and 
institutions of learning really engage, that you get better 
applicants, you get more applicants? Have you noticed that with 
your engagement with schools?
    Mr. Reinhold. So what I will say is historically there have 
not been good measures to determine where are the applicants 
coming from. And one of the enhancements that we are creating 
in USAJOBS is to enable us to better track the source of 
applicants. We have created what we call the Agency Talent 
Portal, which is a place where an agency can go and 
specifically look at where applicants are coming from, whether 
it be people linking from Facebook or from certain job sites or 
folks who hit USAJOBS from the get-go.
    Senator Heitkamp. One of the things, thinking about this 
and understanding kind of how people engage in what they think, 
a lot of recruitment happens through friends and family. ``This 
is my job, I really like it. I think Joe would like it,'' or at 
least there might be an opportunity there.
    One of the things that I was thinking is if, let us say, I 
see an opportunity at NASA and I think this is great, I get a 
hold of my sister and say, ``I think you would love this job.'' 
She may be reluctant to think about making the change, but if 
there was some way based on that recommendation USAJOBS could 
send her some kind of outreach saying, ``Hey, I heard you might 
be a great person.'' I mean, I think we wait around for it to 
come to us, is my point, and we do not do enough to reach out. 
And if you talk to college recruiters, what they will tell you 
is their students frequently sign up in colleges that may not 
have, U.S. News and World Report ranking, but because someone 
did outreach, this very top-notch student is in an institution 
because they felt like, hey, they really wanted me, they really 
made it possible for me to come. And that is one of the things 
I think when I hear this, it is all about incoming and not 
about outgoing and reaching out.
    I know that would be hard to measure, but I think it is 
something you might want to add to a potential kind of 
recruitment tool.
    Mr. Reinhold. That is a great suggestion.
    Senator Heitkamp. Yes, I mean, think, if you are sitting 
there and all of a sudden out of the blue you are trying to 
decide what to do, and you get an email from someone saying, 
``Hey, I heard you are an aerospace graduate at UND. NASA has 
some openings. You might want to consider looking at us. We 
would love to have a visit with you about what that opportunity 
looks like.'' And, ``Go to your guidance counselor whom we have 
trained, fill out this profile, and let us have a 
conversation.''
    But I think, because the numbers are so large in Federal 
service, that kind of strategic recruitment that you would see 
in a major law firm, that you would see in an elite kind of 
service, we do not see. But I think we should treat it that 
way.
    Mr. Reinhold. I could not agree more, and, one of the 
things that I would submit is that USAJOBS is not directly a 
recruiting mechanism, but agencies can engage in lots of 
activities, and I know many of our folks at the table here do 
this, where they know where the talent pools are and how to 
strategically go after them. And what we are trying to do with 
USAJOBS is create kind of a central place where everybody can 
go. Once you find out about, hey, there is this place where you 
can go to find out about Federal jobs and it is USAJOBS, we 
want folks to have a good experience when they land there.
    Senator Heitkamp. I think we want people to feel like this 
is not them asking for a job; this is them getting recruited to 
a job. I think that is a significant kind of--it adds to the 
discussion about the mission. We are being recruited to help 
launch the Web. We are being recruited to help protect the 
border. Someone wants me to help them do that. And I think that 
is different than, boy, that is a job, may pay good benefits 
and be exciting for a while, but, do they want me?
    I would turn it over to Senator Carper for questions.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. I just want to commend you for your 
interest in this area and for taking the initiative. This is 
important.
    Senator Heitkamp. Well, I want to say this about Senator 
Carper. Every month Senator Carper goes to the floor and puts 
up a picture and talks about an enormous contribution of 
Federal employee has made to the safety or security or just to 
improving the quality of life in America. And he is one of the 
few people who does it, and there is no greater champion of 
recognizing the great service that so many of our Federal 
employees provide, no greater champion than Senator Carper.
    Senator Carper. I have nothing else to say. [Laughter.]
    I will quit while I am ahead. Thank you. Thank you, Heidi.
    We use the internship program in our office much like a 
farm system in baseball, and we have a single-A team in 
Wilmington, Delaware, Carolina League, believe it or not, and 
they have a single-A. Folks finish up there, they go to double-
A. If they are getting better, they go to triple-A, and 
eventually they end up with the Kansas City Royals. A year ago, 
when the Kansas City Royals won the World Series, half the 
people on the field that day for the Royals were folks who 
started off in Wilmington, Delaware, with the Wilmington Blue 
Rocks.
    But we think of our interns that work in our office here in 
Washington; we have three offices in Delaware--Wilmington, 
Dover, and a place called Georgetown down south--and we have 
interns in all of them throughout the year. In the summer, we 
pay them. We pay them a stipend--not a lot but something. And 
the other parts of the year, they can earn credit for school. 
For the most part, they are in school, in college. And if they 
do a good job, they get letters of recommendation. They get a 
great work experience. We treat them like our family. We 
welcome them warmly. We give them just a wonderful experience.
    I was shocked to learn, Senator Heitkamp, that there are 
some Senate offices where the interns are not allowed to talk 
to the Senators, if you can believe that. Good luck in our 
office. That would not be in ours either. But I have had five 
chiefs of staff as a Congressman, Governor, and Senator, and 
two out of the five started as unpaid interns. And what we do 
is we bring the really outstanding interns back for a second 
tour, either in Delaware or down here. And when we have an 
entry-level position, we hire our former interns in a lot of 
cases. And then we have sort of a career ladder for them that 
sometimes ends up as chief of staff or legislative director of 
our committee, that kind of thing.
    I do not know a whole lot about the Pathways Program, but I 
know what works for us. I understand that the Pathways Program 
is made up really of three programs, and one of those is an 
internship program. Can you just tell us how that works? We 
have people lined up to be interns. I mean, it is highly 
competitive. For maybe four slots here in D.C., we have easily 
20 times that many people who would like to be able to hold a 
spot. But just tell us how the internship program works. We 
stay in touch with our interns. When they graduate and go off 
into the world, the ones that were really outstanding, we stay 
in touch with them. And, eventually, when we have an opening, 
we try to bring them back in.
    For the folks that have been part of our team now going off 
into the world, there is actually a name for us. It is called 
``Carpertown.'' It is like ``Hotel California.'' You can get it 
but you cannot get out. [Laughter.]
    Please.
    Mr. Reinhold. I would be happy to. Thank you. And thank 
you, Senator, for being a champion of the Federal workforce. I 
think it is critically important that we get them----
    Senator Carper. It is a labor of love.
    Mr. Reinhold. So turning to your question about the 
Pathways internship program, it is very much designed to be 
what you are talking about. It allows current enrolled students 
to come in on a temporary basis and serve for some period of 
time. And for some it is a summer. For some it is summers and 
breaks. And for some it is a longer-term proposition.
    Part of what it does is give folks an opportunity to get 
some exposure to a lot of the interesting work that we do in 
the Federal Government, and that time served in an internship 
can also be credited toward--once they meet a certain number of 
hours and there is a position open, they can be converted into 
a permanent job at that point. So there is that flexibility to 
convert folks.
    Based on a recent review and study that we conducted of 
that Pathways Program, we were really pleased to see that 
recruitment efforts are paying off, that we are attracting good 
applicant, diverse applicant pools. And the other thing that, 
frankly, I think we were a bit surprised about based on 
conventional wisdom is that about 93 percent of program 
participants who were surveyed indicated that they wanted to 
stay in the Federal Government. So we were really----
    Senator Carper. Say again the percentage?
    Mr. Reinhold. Ninety-three percent of the folks who were 
surveyed. So we are really encouraged with the fact that, wow, 
they want to stay with us.
    So we have actually hired governmentwide about 35,000 
individuals under that program since its inception in 2012, and 
we are continuing to work to publicize that program and 
encouraging agencies to take advantage of it as a tool.
    Senator Carper. Good. Do you know if all Federal agencies 
or most of the major Federal agencies use the Pathways Program?
    Mr. Reinhold. I do not have numbers off the top of my head.
    Senator Carper. You do not have to even know, but just 
generally, are most agencies aware of it? Is there an interest 
in using it?
    Mr. Reinhold. Yes, I will say the Pathways Program was 
introduced--kind of took the place of a group of student 
programs several years ago, and given the fact that we were 
going through, some budget constraints and there was not a lot 
of hiring going on, it kind of coincided with the introduction 
of this program, and the uptake was not great. But what we are 
pleased to see is that the uptake is picking up. OPM has done a 
lot of work to get the word out there about this program. As I 
mentioned, we reach out to colleges and universities to 
publicize the program. And we work very aggressively to get the 
word out to agencies to ensure that they understand what it is 
and how they can leverage it.
    Senator Carper. Senator Heitkamp and I were here, along 
with our colleagues, a couple of days ago, and the Secretary of 
the Department of Homeland Security was here, and I think he 
was sitting, Mark, where you are sitting; and Jim Comey, head 
of the Federal Bureau of Investigations (FBI), was sitting 
where you are sitting; and Nick Rasmussen was sitting where 
Robert is. And one of the things we talked with Secretary 
Johnson about was the latest results from the surveys of 
Federal employees, and we go department by department to see 
where the agencies that are deemed to be most favored by 
employees as a place to work. And after years of seeing the 
Department of Homeland Security struggle with the low ratings, 
we had some very encouraging news, and we talked with him about 
that. I would like to hear from you, too, Angela. I like to say 
find out what works, do more of that. So what is working?
    Ms. Bailey. Thank you, Senator. Yes, we are actually quite 
proud of that, for an agency the size of ours to have an 
increase that we did. And I know OPM has supported the fact 
that they believe it is a statistically significant increase. I 
really think the bottom line is that, for us, it all started 
with leadership at the top. So from the----
    Senator Carper. Could I just say something?
    Ms. Bailey. Yes, sir.
    Senator Carper. When the President nominated Jeh Johnson to 
be the Secretary--I am sure Senator Heitkamp will remember 
this--across the whole top level of management within Homeland 
Security, there were folks in acting capacity, in some cases 
really almost nobody.
    Ms. Bailey. Right.
    Senator Carper. And that is not a good situation. And what 
this Committee did is worked with the administration, Democrats 
and Republicans--Tom Coburn was a part of that; Heidi was 
certainly a part of that--and put in place, I think, just a 
terrific team. I think leadership is always the key in the 
success of any organization. And they have been focused like a 
laser--Ali Mayorkas, the Deputy, Jeh, and obviously you are 
pulling the strings behind the stage.
    So go ahead. Tell us why this is happening.
    Ms. Bailey. Yes, and you have touched on some of it. One of 
the things that the Secretary did that I think I am not aware 
of any other Federal agency doing is he did the ``Undercover 
Boss.'' So he put on a uniform, a Transportation Security 
Administration (TSA) uniform, went into Baltimore Washington 
International (BWI) Airport, and went amongst the employees, 
the passengers, the customers and everything, and he listened 
to honest feedback, because in some cases some of them were 
not----
    Senator Carper. Who did this? Jeh?
    Ms. Bailey. Yes.
    Senator Carper. Because I remember going through an airport 
security check one time, and I was talking to one of the 
Transportation Security Officers (TSOs), and I said, ``Do you 
know who you look like?'' I said, ``You look exactly like Jeh 
Johnson.'' And he said----
    Ms. Bailey. Maybe it was.
    Senator Carper. And he said, ``Well, I am Jeh Johnson.'' 
And I always thought he was just kidding. Maybe it was him. You 
never know. [Laughter.]
    Ms. Bailey. Yes, it very well may have. In addition----
    Senator Carper. Now, there is an old saying: ``Never let 
the truth get in the way of a good story.''
    Ms. Bailey. That is right.
    Senator Carper. Take that with a grain of salt.
    Ms. Bailey. So from his ``Undercover Boss'' experience, I 
think it was really great for him to actually hear from folks 
from an honest, unvarnished truth as to what is really going 
on, especially whenever folks are not necessarily sure who you 
are.
    Then the second thing that they did is they did a lot of 
what I will call listening tours, where he and the Deputy and 
the Under Secretary went out----
    Senator Carper. Yes. He talked about that the other day.
    Ms. Bailey. And, again, it was a great opportunity and they 
did not go to all the places that are like the tourist 
attractions, right? They went to the places where it is really 
brass knuckles, really hard-to-do jobs, in some of our border 
areas, some of the tougher airports.
    And so, again, from that kind of intel, they came back, and 
also the Under Secretary, Russ Deyo, heads up our executive 
steering committee, personally heads it up--he does not send a 
delegate or anything. He comes to those. Each of the components 
has a representative at the senior executive level that sit on 
that. And we just really have honest, open, candid 
conversations about what is working, what is not working, what 
are the paths that we want to take, stop trying to boil the 
ocean. We said let us focus in on a few----
    Senator Carper. I like that: ``Stop trying to boil the 
ocean.''
    Ms. Bailey. Yes, and so we decided to instead focus in on 
three concrete things that we really thought we could do.
    One was we started paying attention to the leadership. We 
started delivering things like toolkits for them so that they 
could actually have--one of the things that we delivered is 
OPM's Mythbusters, for example, which was hugely welcomed by 
the hiring managers.
    The second thing we did is created stay interviews, so 
everybody wants to do an exit survey, but at that point, the 
person is already gone and it is not exactly helpful. So we 
created stay interviews where you actually sit down with the 
employees and the executives and ask them: What makes you get 
up in the morning? What makes you hit the snooze button? What 
kind of job would you like to go back to that you had in the 
past? And what that did is it allowed us to really kind of 
drill in and find out exactly what it would take, because many 
of these things do not require money. A lot of these things 
just actually require paying attention to the small things in 
life that the employees really want.
    When we listened and they said, ``We would really like a 
microwave in the break room,'' we bought them a microwave for 
the break room.
    Senator Carper. How about beer?
    Ms. Bailey. Yes, and so most of the mini fridges are 
stocked with beer--no, just kidding. [Laughter.]
    Just kidding. Jeff is going to kill me. I am really just 
kidding.
    Senator Carper. I think Senator Heitkamp is going to kill 
me if I do not yield my time back. Just one more quick thought 
from you, and then I need to bow out.
    Ms. Bailey. I think really what I wanted to say is that 
what we tried not to do, in addition to, like I said, not 
boiling the ocean, is we tried not to do one-size-fits-all. So 
we are a house of brands, right? We have cultures within 
cultures within DHS, and we tried to honor those and respect 
those and allow those different cultures to figure out what 
worked best for them. And I think really by doing so, we saw 
the results of that.
    Senator Carper. Good. Well, you are living proof of finding 
out what works, do more of that. I will just close with one of 
my favorite quotes. There is a woman named Maya Angelou, a 
famous poetess. She passed away about a year or two ago. She 
actually sang at the President's Inauguration I think 4 years 
ago. And I remember giving a graduation commencement address at 
the University of Delaware about 15 years ago when I was 
Governor and just really knocked the ball right out of the 
football field. But among the memorable things she said--and I 
think of this in the way that we treat our interns and, 
frankly, I hope, the other people on our staff. But she once 
said, ``People will not remember what you said. They may not 
remember what you do. But they will always remember how you 
made them feel.'' And what we try to do in our office--and I am 
sure the same is true in Senator Heitkamp's office--especially 
with the interns, we want them to feel welcome, we want them to 
feel important, and we want them to feel like a valued member 
of our team. And it seems to work.
    Thank you all, and thank you very much for letting me join 
you.
    Senator Heitkamp. Thank you, Ranking Member Carper.
    Ms. Bailey, I want to get back to you because, as you know, 
we have been doggedly determined to try and get a full-fledged 
workforce on the Northern border, whether it is in Portal or 
whether it is in Pembina or all of the places that are very 
remote on the Northern border. It has been incredibly difficult 
not only to recruit people up there, because obviously you can 
ask people to go and they go, but to retain folks. And a lot of 
that is quality of life.
    One of the things that we have experienced in economic 
development in rural areas is that we used to say, when I was 
in State government, all you had to do was develop primary 
sector jobs; and if you had jobs, that would save the rural 
areas. Now we are finding out we have open primary sector jobs, 
good jobs in rural America. No one wants to live there. And so 
we have a very hard time in this age category convincing folks 
that they want to live in rural America.
    You operate in rural America all across--I mean, I have 
been on the Southern border, mainly in the very remote 
locations in Arizona. I have been up and down--in fact, took 
Senator Carper on an airplane, a helicopter run by Air and 
Marine, thank you very much, showing him the Northern border.
    How do we in this group really address the concerns of the 
younger millennials who would be coming in in terms of 
recruitment into what we might say are less desirable areas? 
What tools do you need to do that?
    Ms. Bailey. I think we probably have the tools available. I 
think we just have to rethink some of our strategies. And so 
what I mean by that is I think too often we are applying 
Washington, D.C., or metropolitan type recruiting and retention 
strategies to an area that is completely different than this 
particular area.
    When I worked for the Defense Contract Management Agency, 
we ran into this same issue because we had some of the remote 
areas in which we were trying to do that, and one of the things 
that we successfully did--and I would like to actually bring 
this idea to DHS as well--is we started recruiting our interns 
and our recent grads, we started recruiting them in cohorts, 
and we started placing them as cohorts into these rural 
communities so that they were together as a group. Because what 
happens is if you just take, let us just say a 25-year-old or a 
20-year-old and you plop them down into the middle of an 
environment which is completely unfamiliar to them, they do not 
have their parents, they do not have their family, they do not 
have their friends, and their co-workers are already married 
with their 2.5 kids and a dog, right? And so at the end of the 
day, when they are all headed home, the younger person just 
really did not have anybody that was there to be with them.
    And so by creating these cohorts and actually putting them 
together, we helped them find housing in an area that was 
together. They then formed their own groups. They formed their 
own softball teams. They went to happy hour together. They did 
all the things together. But that is how we actually recruited 
them in, kept them together. We created mentors, which, by the 
way, we brought back alumni. I think this is another great 
idea. So the alumni that had retired, we created an alumni 
group, and then that group became kind of like mom and dad, if 
you will, over the cohort, and it helped them, kind of 
stabilized them, and they had somebody to turn to that was not 
necessarily their boss or their colleague. And it just created 
this more family environment.
    Senator Heitkamp. So how would you effectuate that, how 
would you implement that in Border Patrol?
    Ms. Bailey. In Border Patrol--and, we can work with them on 
this, but basically whenever we do a hiring, we would do 
hiring, and then we would look at the demographics, because we 
cannot just hire for millennials, right? But when we hire for 
those, we will look at the demographics of that, and where we 
find clusters of folks that are within the same age range, if 
you will, we will actively reach out to them and then help 
them, again, like I said, with finding the kind of housing that 
they might want to have and----
    Senator Heitkamp. Can I add a nuance to that?
    Ms. Bailey. Sure.
    Senator Heitkamp. Recruiting from the area, recruiting 
people who love to hunt and fish, that is their value, that is 
their ethic connecting them with community people who will be--
--
    Ms. Bailey. Right.
    Senator Heitkamp. But I think sometimes you take someone 
from Chicago and say here you are in Cavalier, North Dakota, 
and that is culture shock. And so I think taking a look at 
where you find these cohorts and who you recruit and how you 
recruit, taking a look at kind of what their backgrounds are, 
because you know the satisfaction level is going to be much 
higher if they are in a position--or if they are in a living 
situation that looks very familiar.
    Ms. Bailey. Right, or if not familiar, it at least is an 
area in which they can kind of collaborate together, and they 
can kind of get through it together. In other words, when we 
just think of them as individuals, then they are trying to 
struggle on their own versus if they see themselves as part of 
a group, even within a foreign environment, I think that they 
just tend to like cluster together and have more interest.
    Senator Heitkamp. Yes. One of the concerns that I have--and 
I guess it would go to both you and Ms. Leo--is that we think 
that you are enormously talented, and we are glad you are here 
today, grateful that you are here today. We think sometimes the 
bureaucracy or the rigidity of the system, you always have to 
be looking for work-arounds. I think that takes up too much 
energy to look for work-arounds. We want to know what are the 
embedded kind of problems that are in the system that need to 
be removed for you to do your job kind of moving forward. And 
most of you know I have a bill that deals with flexible hire. 
We have been working very closely with OPM on how this would 
work and respect kind of the traditions of Federal service, but 
also provide flexibility to the human service professionals, 
human capital professionals that are out there.
    So I will ask you, Ms. Leo, what just drives you crazy in 
doing your job and you just say, ``If only this would go away, 
I would really be able to do my job much better''?
    Ms. Leo. Interesting question. I think that the way I 
approach it--well, nothing drives me crazy in my job, so I just 
have to say that authentically because I really love what I do 
and I love being able to connect with the people at NASA, and 
they really love what they do. And I think that is our key to 
bringing people in, is we think about our recruitment strategy 
beginning with outreach in the community at large. And so our 
employees take the story to the American people, and we do that 
on a daily basis. Just before I was coming to----
    Senator Heitkamp. But you have to give me something that 
might be just an irritant.
    Ms. Leo. Well, I mean, there are certain things within our 
hiring authorities that are kind of rigid. I think even with 
the Pathways Program we have to be very creative with how we 
bring students, recent graduates and interns in. And we have 
met great success with that, too. So I think even though there 
are very many challenges with our hiring process and the 
regulations that we have to follow, we have a lot of 
flexibilities, and that is one of the things we have been 
focusing on, is what are the authorities that we are not using 
that are there at our disposal.
    So we have recently become an employer of National Service, 
and we are recruiting returned Peace Corps volunteers and 
AmeriCorps VISTA folks so that we can reach a different part of 
the population. So I think there are a lot of flexibilities. 
You just have to look broadly and cast a wide net and think 
about recruitment from outreach all the way to onboarding.
    So even though there are some challenges with our hiring 
system in the Federal Government, there is a lot that is 
available to us that we can use.
    Senator Heitkamp. If you are familiar with it and if you 
are willing to use those flexibilities.
    Ms. Leo. Yes.
    Senator Heitkamp. Ms. Bailey, same question.
    Ms. Bailey. So I think that--well, I guess there are a 
couple things. I had the fortunate opportunity of working at 
OPM for eight years, and so I kind of had the opportunity to 
see some of these things are they bubble up that we were 
actually trying to fix.
    The number one thing for me is that I really do think that 
the H.R. community as a whole over the years has been decimated 
to the point where we do not have the number of folks actually 
on board to do the work that they need to do. They are not well 
trained anymore. We really actually need to start growing our 
own through what I will call an ``HR Academy.'' I would love, 
love, love to see OPM get back in the business of actually 
providing H.R. training so that like whenever I was coming up 
in my 20s and I was an Army intern, you went to OPM and you got 
trained. And it was considered world-class training, and people 
actually recognized that and cared about that.
    So I would love to see an H.R. Academy----
    Senator Heitkamp. So the same thing that we know drives 
millennials was just training and----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. It is what you need in the 
workforce.
    Ms. Bailey. Yes, absolutely. And so that is one of the 
things, making sure that, both the hiring managers and the H.R. 
specialists understand this. We have way too many hiring 
authorities. Everywhere you turn, there is yet a different way 
to hire somebody, whether it is competitive or it is excepted 
or whatever, and it gets ultra confusing for everyone.
    The next thing that I would really love to have is the 
ability to actually have these hiring events and use the direct 
hire authority. So one of the reasons we were so incredibly 
successful with our cyber hiring event is we used our direct 
hire authority, which OPM did give us--actually, they gave the 
Federal Government, all the agencies--to hire information 
technology security specialists. But without that, I can only 
say we have 14,000 resumes that we are trying to rate, rank, 
apply the veterans' preference, do everything that we need to 
do in order to get through all of that takes weeks and weeks 
and weeks because you really have to do that right.
    And so the advantage and the benefit of having a direct 
hire authority when you are having a hiring event is that you 
can invite people in. You can do it virtually, or you can do it 
in person. But you can actually get the resumes, and what we so 
successfully did is we had in this case the CIO community 
literally sitting in a room like this, CIO, HR, and security 
all together.
    So as we are looking at the resumes that were coming in and 
people were walking in, we actually could review those, hand 
them over to the CIO, who literally ran downstairs, found the 
hiring manager, interviewed them, walked them over to the 
security office, gave them a tentative job offer, fingerprinted 
them on the spot, and out the door they walked.
    And so that is how you can really effectively make some 
changes that would be just incredibly beneficial to us, is that 
when we have these specific hiring events.
    Senator Heitkamp. And I would say there is no more critical 
place where you need to do that, because we absolutely need the 
best and the brightest in this terrific challenge that we have 
on cybersecurity.
    Ms. Bailey. Exactly.
    Senator Heitkamp. So, you could really make a case that is 
a national security imperative, because you do not want those 
same folks using those incredible skills to go do something 
else.
    Ms. Bailey. Right. And I am not trying to suggest that we 
need to have these kind of things for every position out there, 
but I think we have to be judicious in which positions that we 
are actually using that kind of process for. So, those are 
really probably two of the things that just eat up most of our 
time, is this thing called the rating and ranking process when 
you are trying to get through. Thousands of people do apply for 
our jobs.
    Senator Heitkamp. Is there a way to streamline the rating 
and ranking--because I do not think anyone here would say we 
are interested in eliminating that. But is there a way to do 
it, using data, using kind of a more structured, less labor 
intensive kind of method?
    Ms. Bailey. Mark might be able to help me out with this 
answer a little bit more, or at least correct me if I get out 
of bounds here. But I really think that probably one of the 
best ways might be to do it is to actually ramp up the 
assessment process on the front end, right? And so what I mean 
by that is actually have something that has a little bit more 
rigor in an automated way on that front end so that what is 
spitting out on the back end is not tons of people that have to 
be manually reviewed, because that is the bottom line.
    But I think whenever we actually do a lot of that, it is 
expensive to do the assessments. It sometimes can irritate the 
applicants, to think that they have to go through this 
assessment process on the front end before they are even 
interviewed, if you will. And so it is really trying to get 
that balance right. And, Mark, I do not know if you have any 
thoughts on that, too.
    Mr. Reinhold. No. I mean, I think your comments are right 
on point. I think in many ways we have come to rely on 
technology as kind of the fallback to do an assessment. But if 
you are not building a good assessment in the first place, then 
technology does not do anything but streamline a bad process.
    OPM is continuing to put a lot of effort into a set of 
assessments that we call ``USA Hire,'' and these are 
professionally developed assessment tools that are available to 
agencies that they can use to help screen in many cases large 
quantities of applicants. And some of these assessments help 
get at soft skills, which are really hard to glean from a 
resume, even sometimes from an interview. But they are a very 
robust set of assessments that you can actually apply at scale 
and help, winnow down some of the volume.
    Senator Heitkamp. Well, I am really interested in what the 
barriers would be to using those kinds of tools to streamline 
this process, because I want to say this: If in 2019, 30 
percent of the workforce that is working today is not working, 
everybody retires when they can retire. Are you ready for that? 
Are you ready for it? I mean, that is a huge, huge challenge.
    I think that we all need to think about this not as a 
continuation of a process, but that succession planning for 
almost every major organization is a huge challenge. This is 
not unique to the Federal workforce. You see this in utility 
companies where I have sat on boards of directors talking about 
the average age of managers, never mind the average age of the 
maintenance worker who may have started with a plant who 
finished their career with a plant, and that is a lot of 
intellectual property that the Federal Government has that is 
walking out the door. And if we do not have succession 
planning, if we do not have the ability or the workforce in the 
H.R. area to actually do the work that we need to do to 
guarantee that we are hiring the best and brightest, that is a 
formula for failure in the important work that the Federal 
Government does.
    So are we ready? I guess, Mark, that is a question to you. 
Are we ready? If you can just imagine the worst-case scenario--
because we know that a lot of people who are eligible to retire 
do not retire. But if you think worst-case scenario, something 
happens and people just get fed up because they are tired of 
the government shutting down and not knowing and feeling 
underappreciated, are we ready to fulfill the commitments that 
we have made in the Federal Government with the workforce?
    Mr. Reinhold. So I will say to your point, one of the 
things that OPM is really driving hard on is strategic 
workforce planning. There are some agencies who use very good 
approaches and sophisticated approaches, and there are others 
who are not doing as good a job as they could be. It is 
critically important that we look at the composition of our 
workforce, evolving skill sets that we are going to need, what 
we need today and looking at demographics of our workforce and 
that we systematically and intentionally plan for that.
    Senator Heitkamp. Well, it seems to me--and I want to turn 
back to Mr. Goldenkoff--that when we judge what we are doing 
right now, when we evaluate what we are doing, we have heard 
great creative ideas here. We have heard best practices. That 
is why both Angela and Lauren are here, because we think they 
represent great practices and great improvement. But how do we 
get other agencies to adopt these best practices? How do we 
best develop metrics, some kind of evaluative tool that we 
would need to judge this from this Subcommittee's perspective, 
so that we can, in fact, do the oversight that we need to do on 
the Federal workforce?
    Mr. Goldenkoff. Well, that is a great question. You are 
absolutely right. There are lot of best practices out there. 
There are agencies that are doing great things. You mentioned 
the agencies at this table. The problem is it is inconsistent 
across the Federal Government.
    Senator Heitkamp. Yes.
    Mr. Goldenkoff. And so how can we level the playing field 
and how can we share those best practices? And so one approach 
is the CHCO Council, which already exists. It is the Chief 
Human Capital Officers Council, and that was set up to do 
exactly this in part, to share some of these best practices.
    Senator Heitkamp. But we need you to be our eyes and ears, 
to help us with that oversight function so that when we bring 
in an agency where we do not believe they are doing the right 
thing, we have the ability to evaluate that and to have that 
discussion.
    Mr. Goldenkoff. Right, but----
    Senator Heitkamp. And they know what they are going to be 
measured on.
    Mr. Goldenkoff. And that is where GAO can play a important 
role, and that is what we work with your Committee on, and we 
go about that in a couple of ways.
    First, GAO has identified a series of best practices. We 
have our best practices or the drivers of engagement, and so 
that is something that you can use and evaluate agencies 
against and say, ``To what extent are you implementing these 
drivers of engagement? ''
    We also issued a report recently, where we mentioned some 
of the barriers to more effective hiring. A key recommendation 
that we made to OPM was to basically scrub all the hiring 
authorities that are out there. In this report that we issued 
earlier this year, there were 196,000 new appointments in 2014, 
but just 20 hiring authorities of the dozens out there. Over 
100 hiring authorities were used that year. Only 20 were used 
to make 90 percent of the hires. So there is a lot of hiring 
authority that is basically going unused. There are a lot of 
tools in the toolkit. That really begs the question: Why aren't 
these tools being used? And so that is one of the 
recommendations that we have made to OPM.
    So where I am going with this is hold OPM accountable for 
implementing GAO's recommendations, these governmentwide 
recommendations. OPM is doing some great things, but they need 
to do more. And one of them, as I said, is looking at the 
hiring authorities and determine: Are they effective in meeting 
the needs of agencies? Effective in terms of meeting the needs 
of hiring managers? Of applicants? Are they meeting the needs 
of the merit system?
    Another barrier is the classification system. The Federal 
classification system was established in 1949, so it is a relic 
of something that is decades old. Back then it was designed for 
workforce and workers of a different time or a different era. 
And we made some recommendations about the attributes of a 
modern and effective classification system such as flexibility, 
that sort of thing. By making changes to it, you might be able 
to give more flexibility in terms of pay, give more flexibility 
in terms of moving Federal employees around, both in terms of 
within agencies and across agencies. So that is another thing 
that can be done.
    Senator Heitkamp. And all of these things, I mean, going 
back to kind of the theme of this, all of these things in terms 
of removing the rigidity, making sure that people are using the 
flexibility and the hiring tools that they have, those are all 
things that, it seems to me, fit within recruiting the new 
Federal workforce.
    Mr. Goldenkoff. Oh, exactly. And then a final thing in 
terms of actually getting down to specific metrics, GAO has put 
closing mission-critical skills gaps on our high-risk list, and 
one of the recommendations that we have made to OPM in concert 
with the CHCO Council is to develop a suite of metrics that 
agencies can use, a consistent set of metrics. Something called 
``HRStat,'' basically statistics for the human resource field, 
they already exist. Agencies are developing them. One of the 
issues that we found is that those metrics are inconsistent. So 
it is like you are using the metric system; someone else is 
using inches; someone else is using furlongs. And so in terms 
of your ability to oversee progress being made in improving the 
hiring process of whether agencies are addressing mission-
critical skills gaps without a common suite of metrics, you 
cannot do that.
    So we are not saying that there should be one-size-fits-
all. Agencies do need their own individual metrics. But there 
also should be something that agencies--a more cross-cutting 
set of metrics as well, and that is something that the CHCO 
Council can consider.
    Senator Lankford [Presiding.] Thank you. Let me drill down 
on the classification statement that you just made. And, by the 
way, I have a friend of mine that I know for a fact was born in 
1949. I am going to tell him you say he is a relic. [Laughter.]
    But the classification system does need an update. There is 
no question about that. Who is making the proposals to do that? 
Have you seen outside groups, have you seen CHCO, have you seen 
anyone that said, ``Here is a set of ideas that we would 
propose as a change to that''?
    Mr. Goldenkoff. No. The President has proposed a 
commission, and that has never happened. No one has picked up 
the ball, and that is where it could be a key starting point. 
Obviously, it is in statute, so that would need to be changed.
    Senator Lankford. Sure.
    Mr. Goldenkoff. Another aspect, too, is Title V. I mean, if 
we are talking about some relics here that is from 1978. Again, 
it was designed for a workforce of a different time. Things 
have changed. The skills that are required for a Federal job 
have changed. We have a need for many more advanced skills than 
existed just even in the last 10 years. And all those things 
just need to be reexamined. Some pieces may be entirely 
appropriate. There is a lot of it that still works. I mean, the 
merit principles, those are important. We need to retain those. 
But there is a big part of it that may not be working. We just 
need to look at where the friction is.
    Senator Lankford. Mr. Reinhold, which agency would you look 
at and you would lift up and say--as Mr. Goldenkoff discussed 
earlier, there are 100 different tools in the toolbox there of 
these different authorities, 20 of them are used. Which agency 
or agencies would you lift up and say they are really good at 
using the authorities that they have and that they are actually 
doing an effective job of using those? Any agencies in 
particular you would lift up?
    Mr. Reinhold. Off the top of my head, I really would not be 
able to do that. I think there are pockets of excellence when 
it comes to things like using a Pathways Program or leveraging 
things like direct hire authority. But, obviously, one of the 
big challenges is that we all crave flexibility, but the more 
flexibility there is, the greater the difficulty in managing 
it, and understanding the flexibilities that are available. And 
that is kind of one of the tensions that we have seen is, gee, 
we have 100-and-some flexibilities, nobody is using them? 
Should we take them away or should we encourage more use of 
them and train people so that they understand what they are? 
And it is just striking the right balance there. And I do not 
have a perfect solution for it, but----
    Senator Lankford. Yes, part of that is going to be just 
management training so that they have the ability--when you 
trust your managers, then those managers are able to be able to 
make the hires and have the authorities that are needed, a set 
of parameters, a set of guidelines, that you go buy good 
training for those individuals and then provide trust. And I 
understand every agency is always concerned about ending up 
here or ending up in the newspaper at some point saying that 
there was a mistake made. But we have 2.5 million civilian 
employees. There will be mistakes made. Part of the challenge 
we have is the removal of individuals that should not have been 
hired or that are a problem, that streamlined process to make 
sure that is effective, good hiring process and good hiring 
authorities in the middle, and so that on one end you do not 
have individuals working within the Federal Government that are 
toxic in an environment that makes it miserable to work there 
because it is someone that should be removed and no one wants 
to isolate rather than remove them; on the other side that we 
hire better in the process, and that is just a trust issue.
    Can I ask just a general question as well? How did this 60-
day target come about? Obviously, as I mentioned before, we 
have actually gone from 90 days to 99 days over the last three 
years as far as the length of time it actually takes. But there 
has been this goal of 60. How was the 60-day time period set, 
that is what we want to achieve?
    Mr. Reinhold. So I have to be honest, the standard that was 
established as part of the hiring reform effort was actually 80 
days, and I am not familiar with the 60 days.
    Senator Lankford. OK.
    Mr. Reinhold. But that 80-day standard was based on 
research into what are the various components of the process 
from the time you need on the front end to begin planning and 
understanding what the job is that you are trying to fill, 
making sure that you have it classified correctly, you have a 
good job description, you understand what you are going to be 
looking for in candidates, through the open period where we 
allow folks to apply and throw their hat in the ring, through 
the process of assessing them to figure out who the best of the 
best are, all the way up to the point of onboarding. And it 
was, as I mentioned an intentional and thoughtful review to 
determine that 80 days seemed like it was a worthy target.
    Senator Lankford. Right. Let me ask this: Ms. Bailey, this 
is going to sound like a ``gotcha'' question. It is not. This 
is an open dialogue. I pulled something recently on DHS and on 
the merger of DHS, which was such a giant merger and putting so 
many legacy systems all together in the previous two decades. 
There is still an H.R. struggle that is going through.
    In 2011, the agency determined there are 400-some-odd 
different processes for H.R. within DHS, and they set what they 
call 15 areas of improvement and 77 projects. GAO came out and 
said at the end of 2015, of those 15 areas only one of them had 
been done, and I think only three of the 77 projects had been 
done over that four-year time period. Do you know where that is 
going by the end of 2016? And I know we have not talked about 
this before, but I just have an interest in this because this 
is an H.R. consolidation project that will affect obviously 
hiring, which is at 124 days at DHS.
    Ms. Bailey. I sure do. We actually reestablished--since I 
came on aboard in January, one of the things that we did is we 
reestablished the Executive Steering Committee that both myself 
and Luke McCormack, the CIO, we both co-chair, now this whole 
thing called HRIT. And so we are in the process--we actually 
are almost complete--probably by the end of October, we will 
have a complete view of all the H.R. systems that we have.
    I will tell you that just whenever I came in and I saw 
those reports, I read the GAO report, and looking at the so-
called 400 systems, we counted everything to include spread 
sheets. One of the things that I want to get away from is, 
like, let us make sure we are really clear on what a system is.
    So, for example, within the Department we have one payroll 
system for the whole entire Department. Well, we use USAJOBS, 
so we have one front-end system for employees to apply. We have 
two what are called ``back-end systems'' that are being run, 
one by the private sector and one from OPM. So we have two 
major back-end systems that handle all of the applications that 
come in, the rating and ranking and all that kind of stuff. So 
from a global perspective within DHS, the things that I am 
really interested in, we actually have those kind of neck down 
to where we have the appropriate kinds of systems.
    And then what we are doing is we have looked at all 77 
projects. We actually put together an advisory team of all the 
components. Instead of it just being headquarters driven, we 
looked at every single project. If it did not make sense or it 
is not actually a real project that is going to drive us where 
we need to, we got rid of it. We took pretty brave steps in 
doing that because we had been reporting on it, and we just 
stopped them.
    We got that all completely boiled down to nine specific 
areas, nine specific strategic improvement opportunity areas. 
The first one that I will take that I think is a success is we 
were actually able to, although we use USA Staffing, for 
example, as one system, we had seven different instances of 
that, or negotiated contracts, if you will, with OPM, with the 
seven different components.
    We all pulled together with that, had a great conversation 
with OPM, got a 20-percent discount for doing so. We also now 
have a common set of requirements in which OPM can now deliver 
to us exactly what we need for that. We are going to do that 
with the other hiring system that we have as well. So that is 
one example.
    The second thing that we did is we said--what I asked them 
to do is let us actually look at this as to what is meaningful 
for us. So one of the things that we are putting our energy and 
our resources and priorities into is the workforce planning or 
the position management part. You have to know what your 
requirements are. When you address 2019, we have to know into 
the future five, 10 years from now what are going to be our 
requirements so we can build our recruiting strategies and our 
hiring strategies with the communities, with the universities, 
and with the employees themselves to actually meet that 
requirement.
    That is another strategic opportunity that we are going 
after. We are looking at this from end to end so that we can 
actually wrap our arms around what the time to hire really is. 
So today one component keeps it on the books over here, and I 
think you are kind of speaking to that. Then you will have 
another component. So what we have done is we have actually 
gone through and done what we call an ``apple and apple,'' so 
that we are all clear that when someone says entrance on duty 
that we actually know what that means.
    And so we have done some back end work as well as looking 
at the actual systems so that we can start consolidating and 
really start making some really smart business decisions. We 
started also doing the independent cost estimates, which we are 
finalizing right now. I think we go back to GAO with regard to 
the independent cost estimate on each of these different 
strategic improvement opportunity areas. But it is my goal and 
it is Luke McCormack's goal as well, as well as our DOSM, to 
make sure that we focus in on the things that are actually 
going to drive the business and drive us in a direction in 
which we want to go, instead of just trying to tackle 
everything at one time.
    Senator Lankford. Great.
    Senator Heitkamp. She is not boiling the ocean.
    Ms. Bailey. Yes, I told Senator Carper that we are not 
going to boil the ocean.
    Senator Lankford. That is good to know. The global warming 
thing, that really throws that off. [Laughter.]
    By the way, it is painful for me to hear. It is brave to be 
able to clear some of the areas and projects and things that 
are not strategic. I would hope that you would hear from us 
that is a great thing to do and that we would affirm that to 
say let us boil it down, instead of just ticking off someone's 
old list, try to figure out is this the right list to be able 
to work from, should be entirely appropriate.
    Ms. Bailey. Yes.
    Senator Lankford. And we are glad to be able to walk 
through that together, whatever we can do to be able to help. 
The merger of DHS is one of those challenges that we still have 
as a Nation of trying to be able to merge so many things 
together that all of us are trying to figure out how do we 
actually get this done so we are no longer saying we are still 
working on merging entities together to be able to solve it. So 
we are grateful for the work on that and look forward to 
getting some of the reports on it.
    Can I ask a process question as well?
    Ms. Bailey. Sure.
    Senator Lankford. In the delays that are out there, how 
long does the background check part of it typically take? 
Because I have heard from multiple folks that seems to be a 
delay.
    Ms. Bailey. It is. I mean, that----
    Senator Lankford. How long, typically? And I know it can 
change from moment to moment depending on the backlog. But what 
is typical?
    Ms. Bailey. It is not only the backlog. It is the level of 
clearance. So I will up front answer your question, I think it 
can take--I have seen it take as long as 200-plus days. I have 
seen it take as few as 25 days. We are averaging probably 
around 60 days, 45 to 60 days to get our folks cleared through 
the background investigation.
    Another part of it, like a part of our 124 days--and I am 
kind of glad that you asked this question. So at DHS--and I 
would imagine some of my sister agencies find the same thing--
we not only have top secret clearances, we have polygraphs, we 
have medical examinations, we have fitness examinations. So we 
have some pretty tough jobs that require quite a bit of 
extensive assessment beyond just simply applying for the job.
    So when we look at that, at the 124 days, we actually as a 
team, as the entire leadership team, including the components, 
we have actually settled on the fact that--I think it was 
actually 125 days for us is what our target is, because we 
really do have to take into consideration that whole back end 
of getting them cleared through the process.
    The other thing that we are discovering is--and OPM's 
standard, and I was part of OPM whenever we created these 
standards, the 80-day model. We had actually tacked on the back 
end I think it was 14 days for entrance on duty, for people to 
come on board after they got their final job offer. What we are 
finding is that most employees--and this is whether they are 
coming from outside or inside government. It is taking on 
average 30 days, because most people are giving their employers 
at least a month's notice before they are coming on board. So 
that artificially, if you will, tacks on some of it.
    But what we have the ability to do today--and all of the 
components within DHS are participating in this--we can take 
every single step of that hiring process, and we have it 
completely broken down. We set targets for each of that, and 
then we have created a heat map where we can go in and we can 
look to see, and some of that has driven some incredible 
innovation.
    One of the things that we are doing, for example, is 
partnering with DOD and getting reciprocity on some of these 
medicals and fitness and physicals. If they just got out of the 
military and they just got a medical, it does not make any 
sense that we are turning around and doing yet another medical. 
So that is an example of really using the data, heat mapping 
it, figuring out where we are red, and then going after that. 
We have actually even gone--started going after the military 
before they even get out of the service by putting recruiting 
efforts on the military transition centers. And so doing things 
like that, we are able to take what used to be 300-day hiring 
processes and get it down to like 125.
    I am pretty confident that the folks who are applying for 
our jobs, whether it is a Secret Service agent or a Federal 
Emergency Management Agency (FEMA) responder, as long as we 
continually communicate with them what step they are in the 
process, what their next step is, what they can expect, they 
are actually willing--and they understand that it is a pretty 
arduous process to get in, but it is a very rewarding career at 
the end when they do.
    Senator Lankford. Now, that would be true for someone who 
is a field agent and other individuals on it. Do you find the 
same to be true with individuals that are in a warehouse 
position or in an administrative position as well, that they 
are willing to wait that long to be able to get in? Or is that 
tougher?
    Ms. Bailey. So we set different standards for that. So for 
an administrative position, it should be the OPM 80-day model 
because most of those are just through a NACI and a fingerprint 
check and FBI check, we can get them on board. So we set 
different standards, depending on the job. So I should have 
been a little clearer on that.
    Senator Lankford. That is OK. So tell me a length of time 
that you would anticipate in a role like that.
    Ms. Bailey. Well, right now we are averaging somewhere 
around the 80-, 90-day period. I would agree, we need to get 
that down to at least 60 days, if we are going to use the 
traditional process, right? What I would like to instead use is 
the process that we used whenever we did our hiring event, 
where we brought everybody together and we made tentative job 
offers on the spot.
    Senator Lankford. See, and that is what people look for.
    Ms. Bailey. Right.
    Senator Lankford. Is the opportunity to know--just tell me 
yes or no, are we moving to the next step?
    Ms. Bailey. Oh, yes.
    Senator Lankford. That is a big issue. What about issues 
like moving from temporary to permanent? That is another issue 
that I hear quite a bit from individuals. And any of you can 
answer this, but that is a request that I frequently hear from 
people. They say, ``I have a temporary employee that has been 
here 9 months. We really want to be able to keep them, but it 
becomes a whole big H.R. issue just to be able to do the 
transition.'' How does that work?
    Ms. Bailey. I think that that is correct, so that would be 
one of the areas which I would imagine will take legislation to 
be able to change that, to be able to go from a temporary or a 
term position and then convert them over into permanent. We 
would probably have to put some rules around it, like how long 
they are so that we are not circumventing the competitive 
hiring process--right?--to bring them in temporarily for 30 
days and, bam, convert them over. I think that that would just 
cause us more headaches.
    But I think if we had some good, solid criteria around it, 
like, for example, they are on that temporary appointment for a 
year or two and then we want to have the ability to convert 
them, I am positive that would take legislative change. And we 
would be more than willing to work with you and to work with 
OPM to write some legislation that would make sense in that 
regard.
    Senator Lankford. I think that would be very helpful for us 
to be able to get, because I would say that is something I hear 
frequently from different groups. And, again, we are back into 
warehouse positions, clerical positions, administrative 
positions, where they have brought somebody on board, they love 
them, they fit well, they fit in the group, and they think, ``I 
want to be able to make the transition,'' but it is such an 
administrative nightmare to be able to work through that 
process for the H.R. folks that they find barriers to keeping 
good folks. And so those folks are just incentivized to look 
elsewhere.
    Ms. Bailey. Right.
    Senator Lankford. Or they are re-upping their term 
consistently. Any ideas on that, Mr. Reinhold? We have talked 
about that before.
    Mr. Reinhold. Yes, I mean, I think it is an important 
issue. One of the challenges we face, candidly, is that when we 
advertise for a job that is going to last for 30 days, that 
often has the effect of limiting the number of people who apply 
for it. So I think we would not want to have a situation where, 
kind of as Angie mentioned, we are advertising everything for 
30 days, wink, wink, do not worry, we will convert you to a 
permanent job.
    So I think we just need to be sensitive to those kinds of 
conditions, and, to Angie's point, I think there would need to 
be some structure around the way that we do that.
    Senator Heitkamp. Just in closing, I remember being hired 
as a young lawyer and being told I was a GS-9. I had no idea 
what that meant, but it did not sound very glamorous. It 
sounded pretty rigid. It sounded pretty bureaucratic. And it 
did not really help my identity as we move forward. And so I 
think that it is really important that we, in the work that you 
all do, start thinking about how we approach potential 
employees in a way that really makes them feel like, boy, this 
could be part of a mission I want to be part of; I will be an 
individual, I will not be a GS-9 in some kind of classification 
system.
    And so I think that is one of the challenges that we have, 
but we do not have a lot of time. And I am intrigued by the 
reclassification system. That is a big job. And that is why it 
is not getting done. If this were easy, it would be done. But 
it may mean that because we have this transition coming, there 
is no better time, because you are not changing someone's 
status or classification. You may be just looking at bringing 
people in at a secondary level. But I think all of this 
rigidity leads to a diminished employment pool, and we need to 
figure that out. We need to really understand what it is that 
the new worker wants in the workplace, and we need to deliver 
that. And I think, NASA and with the progression that is 
happening at DHS, an important job there, cybersecurity, what a 
great success story that is, we need to populate those kinds of 
stories throughout the whole Federal employment system.
    And so this discussion is by no means over. We are always 
interested on this Committee, not playing the role of ``I got 
you,'' we are always interested in what can we do that will 
make your jobs easier. But going back to GAO, what do we need 
to do to guarantee that we have the ability to do the oversight 
so that we can play our important role, because there is no 
more important decision--there is no more important decision 
that the Federal Government makes than who they hire to serve 
the people. That is true in elections, and it is true when you 
are doing the hiring. And, we take this role very seriously, 
this oversight role very seriously.
    So thank you all for coming. You guys have been great 
witnesses.
    Senator Lankford. I do appreciate that. Let me second her 
statement on that. I do appreciate it. These are big issues, 
and I agree that dealing with the classification system is 
biting off an enormous chunk. But when we are dealing with a 
changeover in administration here in the days ahead, that may 
be an area that needs to be proposed and to be able to be 
attacked.
    I also understand full well when you say that, the 
onslaught of mail that we will get suddenly saying, ``Do not 
change it, we finally just got it to this,'' and all that goes 
with that, there is a lot of pressure to be able to look at, to 
be able to evaluate this.
    I think we have finally reached a point as a government 
that we are so heavy and we cannot take risk in every area and 
everyone has to be managed from D.C. that we are not spending 
enough time training managers and trusting people in the local 
entities to be able to make that, and that is the area where in 
so many places the private sector has rapid speed because they 
train managers, trust managers, and when there is a problem 
with managers and with the Department, they go deal with that 
manager. So we have to have the ability to be able to have 
oversight for managers, expectations, specifications, but they 
are not locked in a box so much that they think, ``I know a 
good person, and I cannot hire them.''
    So we have to figure out how we are hiring the person I do 
not want to hire when this person I think is going to be 
better, or if someone in the middle is a problem to the entity 
and is draining morale because they are a problem in the middle 
and we cannot deal with that.
    All of those are dynamics that can be dealt with, and I 
understand all of them bring slings and arrows toward you and 
toward us because they are suddenly the exception that is 
sitting out there. We will have to work through this, and that 
is tough to do with 2.5 million people in processes. We get 
that.
    I want to say to all of you, as you encounter different 
groups, different entities, that they get together and they 
think through these issues and they make proposals and ideas, 
we are open to seeing them and reading them and having those 
conversations. It does not have to be in an open hearing like 
this. We are glad to be able to go through those documents and 
to be able to determine what are good solutions and directions 
to be able to go. So whether it is a finished product, as 
several of you have said, we can get you some ideas on that, we 
do anticipate getting those ideas from you. That is not 
something we will just turn away. But if there are also groups 
that you would recommend and that you would say this is 
something you might consider in the days ahead, we are glad to 
hear that as well. And just because we are in the month that we 
are in, I like to say to all of our witnesses that not every 
person will remain on in a new administration. Some of our best 
advice has been from people from previous administrations that 
could not say it while they were in the administration, but 
once they are not in the administration and they are not under 
those same guidelines, they can say, ``Here is a set of ideas 
that I have seen that could make this better.'' We are open to 
hearing those things as well and to be able to walk through it. 
Again, this is not ``gotcha.'' This is: How do we fix it? And 
what are the practical steps to be able to do that?
    So I appreciate all of your work preparing for this. This 
will be an ongoing dialogue, and we will see where we can go 
from there.
    I would like to thank all the witnesses again for your 
testimony. The hearing record will remain open for 15 days 
until the close of business on October 14 for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
